U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




                   Office of the Secretary


Federal Information Security Management Act
            Audit Identified Significant Issues
             Requiring Management Attention


                          Final Report OIG-11-012-A

                                  November 15, 2010




                FOR PUBLIC RELEASE



                       Office of Audit and Evaluation
                              Report In Brief
                                    U.S. Department of Commerce, Office of Inspector General
                                                         November 15, 2010

Why We Did This Review Office of the Secretary
The Federal Information
Security Management Act           Federal Information Security Management Act Audit
of 2002 (FISMA) requires          Identified Significant Issues Requiring Management
agencies to secure their in-      Attention (OIG-11-012-A)
formation systems, commen-
surate with the risk of loss or
                                  What We Found
unauthorized use of system
data. Inspectors general must
annually evaluate agency in-      The Department’s information security program and practices are not adequately secur-
formation security programs       ing Department systems, and we are concerned that the likelihood and severity of secu-
by assessing a representa-        rity breaches are considerably greater than what is currently perceived by management.
tive sample of such systems,      The following table summarizes our major audit findings:
and reporting the results to
the Office of Management          Measure                        Finding
and Budget (OMB) and to           High-risk vulnerabilities      Extensive vulnerabilities in system software suggest consid-
Congress.                         identified?                    erable likelihood of a security breach; patch management
                                                                 and vulnerability scanning practices are not effective. Scans
                                                                 identified significantly more high-risk vulnerabilities than were
                                                                 previously known.
                                  Configuration settings         Only 4 of 18 systems (one high-impact) adequately defined
Background                        defined and documented?        and documented secure settings for operating systems and
                                                                 major applications. This is a long-standing deficiency in a cru-
                                                                 cial security practice.
The Department and its
                                  Configuration settings         Only one system securely configured settings for its operating
operating units use over 300      securely implemented?          systems.
information technology (IT)
                                  Security weaknesses and      Most systems exhibited significant deficiencies in reporting
systems; this year we as-         corrective actions adequate- and tracking security weaknesses. As a result, the information
sessed security controls of 18    ly reported and tracked?     about corrective action that the Department is using for perfor-
systems, from six different                                    mance measurement is inaccurate and inconsistent.
operating units.                  Contingency plans              Six of 18 systems’ contingency plans were inadequately tested,
                                  adequately tested?             including 2 systems that support the primary mission-essential
                                                                 weather forecasting function; testing of these 2 systems’ con-
Security weaknesses have                                         tingency plans had not been done since FY 2007.
been a long-standing              Alternate processing sites     Five systems that are required to have alternate processing
problem for Commerce,             arranged?                      sites do not have them, including three systems—two high-im-
particularly with respect to                                     pact and one moderate-impact—that support weather forecast-
                                                                 ing. Documents attribute the lack of alternate sites primarily to
security planning, configura-                                    budget constraints.
tion settings, and control
assessments. This year’s
review focused on Depart-
ment-wide issues that require     What We Recommend
policy improvements and
increased management atten-
tion.                             We recommend that the Department revise its information security policy by providing
                                  specific implementation guidance that will ensure better and more consistent practices
                                  across the Department. Further, increased management attention is required to ensure
                                  that the deficiencies identified are rectified Department-wide.
U.S. Department of Commerce                                                                               Final Report No. OIG-11-012-A
Office of Inspector General                                                                                           November 15, 2010


                                                                Contents

Introduction ..................................................................................................................................... 1 
Findings .......................................................................................................................................... 3 
   I.  Significant Vulnerabilities in Commerce Information Systems Increase Risk of Serious
   Breach.......................................................................................................................................... 3 
      A.  System Components Operate with Many Significant Software Flaws ............................. 4 
      B.  Information Technology Systems Are Not Securely Configured, Reducing Their Ability
      to Withstand Attack ................................................................................................................. 6 
   II.  Departmental Process for Reporting and Tracking IT Security Weaknesses and
   Corrective Action Is Deficient .................................................................................................... 7 
      A.  Plans of Action and Milestones Lack Information Needed for Tracking and Oversight .. 7 
      B.  Reporting and Tracking Process Lacks Controls over Data Integrity ............................... 8 
   III.  Contingency Planning Weaknesses Threaten Operating Units’ Ability to Restore System
   Data and Operations After Disruption ........................................................................................ 9 
      A. Contingency Plans Are Not Adequately Tested ................................................................ 9 
      B. Systems Lack Alternate Processing Sites, Increasing the Risk of Not Being Available
      When Needed ........................................................................................................................ 10 
   IV.  Persistent Deficiencies in Security Plans and Control Assessments Reduce Overall Level
   of Information Assurance .......................................................................................................... 11 
Recommendations ......................................................................................................................... 12 
Summary of Department Response .............................................................................................. 13 
Appendix A: Objectives, Scope, and Methodology ..................................................................... 14 
Appendix B: Full Text of Department Response.......................................................................... 17 
U.S. Department of Commerce                                                      Final Report No. OIG-11-012-A
Office of Inspector General                                                                  November 15, 2010


                                              Introduction
The Department of Commerce and its constituent operating units use over 300 information
technology (IT) systems to fulfill cross-cutting responsibilities in trade, technology,
entrepreneurship, economic development, environmental stewardship, and statistical research
and analysis. These systems perform functions as varied as processing census and economic
data, managing patent and trademark applications, and controlling weather satellites. The
Department and its operating units must ensure that these systems maintain the confidentiality,
integrity, and availability of information by providing protection from a growing range of
malicious actors who can leverage the globally interconnected information and communications
infrastructure to launch attacks. The systems must also be guarded against insider threats,
physical intrusion, and disaster.
The Federal Information Security Management Act of 2002 (FISMA) requires agencies to secure
systems through the use of cost-effective management, operational, and technical controls. The
goal is to provide adequate security commensurate with the risk and magnitude of harm resulting
from the loss, misuse, or unauthorized access to or modification of information collected or
maintained by or on behalf of an agency. In addition, FISMA requires inspectors general to
evaluate agencies’ information security programs and practices by assessing a representative
subset of agency systems, and report the results to the Office of Management and Budget (OMB)
and Congress annually.
We assessed information security controls and security-related documentation of 18 systems
selected from six operating units, including three systems from the U.S. Patent and Trademark
Office (USPTO), which files its own performance and accountability report separate from the
Department. The operating units categorized these systems as high- or moderate-impact, based
upon how severely a security breach would affect organizational operations, assets, or
individuals.1 Seven of the systems that we reviewed support three of the Department’s four
primary mission-essential functions, those that directly support government functions necessary
to lead and sustain the nation during a catastrophic emergency.2 This aspect of these systems
adds importance to one focus of this report: contingency planning requirements necessary to
minimize the impact of disruptions.
Details of our objectives, scope (including a complete list of systems reviewed), and
methodology are described in appendix A.


IT Security Roles and Responsibilities
Under FISMA and Department policy, IT security is a shared responsibility of senior program
officials and the Chief Information Officer (CIO). While the Secretary of Commerce is
ultimately responsible for ensuring the security of the Department’s information and information


1
  See Standards for Security Categorization of Federal Information and Information Systems, Federal Information
   Processing Standards Publication 199, National Institute of Standards and Technology, February 2004.
2
  See U.S. Department of Commerce, “Emergency Readiness for Departmental Continuity,”
   www.osec.doc.gov/omo/dmp/daos/dao210_1.html, accessed October 25, 2010.


                                                        1
U.S. Department of Commerce                                                     Final Report No. OIG-11-012-A
Office of Inspector General                                                                 November 15, 2010


systems, senior officials must manage and supervise the IT security programs in their respective
operating units.
The CIO has a range of responsibilities, chief among them to develop and maintain the IT
security policy; to designate a Chief Information Security Officer; and to monitor, evaluate, and
report to the Secretary on the status of IT security within the Department. The Chief Information
Security Officer directs the management of the Department’s IT security program, a task that
includes coordinating IT security compliance across operating units and developing policies,
plans, control techniques, and procedures for systems.
Operating units have roles and responsibilities that parallel those at the Department level, with
the operating unit head ultimately responsible for the security of the operating unit’s systems. In
addition, authorizing officials, who have the authority to oversee an information system’s budget
and operations, assume the responsibility for operating IT systems at an acceptable level of risk.
Notably, authorizing officials also approve system security requirements and security plans.
System owners must ensure that a system is deployed and operated in accordance with security
requirements. System security officers ensure that operational security is appropriately
maintained and play an active role in developing and updating system security plans.
Certification agents independently assess a system’s security controls, including an initial
assessment of the security plan to determine whether the controls described adequately meet
applicable security requirements.

Department Efforts to Improve IT Security
In response to a September 2009 Office of Inspector General (OIG) audit of the Department’s IT
security workforce,3 the Department established a policy, effective for all operating units,
requiring mandatory training for those employees with significant IT security responsibilities.
The policy identifies specific IT security roles, defines yearly minimum training hours, and
requires professional certifications for those with critical IT security roles. The Department has
also implemented a cyber security employee development program designed to assist individuals
who have not earned an approved industry professional security certification. In FY 2010, 20
individuals became the first graduates of the program.
A key aspect of the IT security challenge is maintaining and enforcing effective IT security
policies across the Department. Commerce operating units have separate management structures
that preclude direct accountability of their CIOs to the Department’s CIO. This decentralization
gives the Department’s CIO only limited authority to ensure operating units’ compliance with IT
security policy and adds complexity to Department-wide information security initiatives.
Notwithstanding this challenge, the CIO, along with the CIO Council, has developed a strategic
plan that seeks “federated” approaches in two priority IT security initiatives: enterprise
continuous monitoring and an enterprise security operations center. The plan is currently targeted
for FY 2012. In this report, we identify deficiencies that require more immediate management
attention.



3
    U.S. Department of Commerce, Office of Inspector General, September 2009. Commerce Should Take Steps to
    Strengthen Its IT Security Workforce, Report No. CAR-19569-1.


                                                        2
U.S. Department of Commerce                                                        Final Report No. OIG-11-012-A
Office of Inspector General                                                                    November 15, 2010


                                                   Findings
Significant vulnerabilities exist in nearly all of the systems we selected for review. The scope of
the vulnerabilities, categorized as high-risk, suggests that the likelihood and severity of a breach
in the confidentiality, integrity, or availability of Department data are greater than what is
currently understood by management. This previously unknown risk stems from inadequate
vulnerability scanning, which has not sufficiently identified high-risk flaws, and poor patch
management practices. In addition, we continue to find insecure configuration settings in system
components.
The process for tracking vulnerabilities is deficient, and an inaccurate and inconsistent view of
risk and remediation exists across the Department. Of further concern, contingency plans for 6 of
the 18 systems reviewed have not been adequately tested. Five systems required to have alternate
processing sites do not have them. As a result, the ability of these systems to adequately recover
from a disruption—and some of these systems support primary mission-essential functions—is
in doubt.
In addition, nearly all of the systems that we reviewed lacked security planning and effective
assessment of security controls—conditions that we have consistently identified in previous
years. Unless Department executives take action to appropriately mitigate and consistently
manage risk, the Department’s systems will remain unacceptably vulnerable to cyber attacks and
other threats to information security.



    I.     Significant Vulnerabilities in Commerce Information Systems Increase Risk
           of Serious Breach
Department policy—which, for “flaw remediation,” is based entirely on the minimum security
requirements for federal systems4—requires the organization to identify, report, and correct
software flaws that result in potential security vulnerabilities. Newly released security patches,
service packs, and “hotfixes” must be promptly installed, and flaws discovered during security
assessments must be addressed expeditiously. Further, operating units are required to conduct
vulnerability scanning (automated detection of software flaws and malicious code in system
components) quarterly or when significant new vulnerabilities potentially affecting the system
are identified and reported (for example, in a bulletin from a software manufacturer).
In addition, operating units must establish mandatory configuration settings (parameters that
govern software’s behavior) for information technology products, configure security settings to
their most restrictive mode, document the settings, and enforce them in all components of the
information system. Operating units must also assess configuration settings of IT products at
least annually. Settings not securely configured represent potential vulnerabilities and pose risks
similar to those of software flaws.



4
    Flaw remediation is required control SI-2 in Recommended Security Controls for Federal Information Systems,
     Special Publication 800-53, Revision 2, National Institute of Standards and Technology, December 2007.


                                                          3
U.S. Department of Commerce                                                            Final Report No. OIG-11-012-A
Office of Inspector General                                                                        November 15, 2010


To validate the extent to which these requirements are met across the Department, we analyzed
the results of network vulnerability scans performed on 14 systems.5 We assessed the extent to
which secure configuration settings were established on all 18 systems by reviewing system
documentation and examining settings implemented in components using automated and manual
methods.

       A. System Components Operate with Many Significant Software Flaws
Vulnerability scans of 1,063 computers in 14 systems revealed a total of 13,778 instances of
potentially high-risk vulnerabilities; 11 non-USPTO systems (1,003 computers) accounted for
12,626 of the vulnerabilities and 3 USPTO systems (60 computers) had a total of 1,152
vulnerabilities.6 We performed 12 of the system scans and utilized the results of 2 system scans
that the National Oceanographic and Atmospheric Administration (NOAA) adequately executed
during our fieldwork. We have shared system-specific results with the operating units, and they
are currently taking corrective action to remediate the vulnerabilities identified.
These vulnerabilities may provide an attacker with immediate access into a computer system,
such as allowing remote execution of malicious commands. Vulnerabilities identified by the
scans may be exploited by software tools freely available on the Internet. The flaws exist in both
operating systems and application software.
Factors contributing to the existence of extensive software flaws include insufficient flaw
remediation and vulnerability scanning policy, procedures, and practices. Risk can be reduced by
timely remediation of flaws, often referred to as effective patch management. The large number
of instances of vulnerabilities indicates that operating units are not promptly installing patches
and other software fixes. In fact, we found instances of flawed software where the patches to fix
the vulnerabilities had been available from the manufacturer for up to 5 years.
Although Department policy is in compliance with the minimum requirements set by National
Institute of Standards and Technology (NIST), it does not adequately reduce vulnerabilities. This
is due, in part, to the lack of provisions for senior management to ensure that flaw remediation is
adequately performed. Our review of system documentation revealed that 11 of the 18 systems
either had deficient patch management practices, or they were considered a “planned control”
(meaning that the systems did not currently have complete patch management procedures, but
system owners planned to develop and implement them at some point in the future). This
security control is critical to ensuring that systems are adequately protected.
Beyond requiring operating units to scan on a quarterly basis, Department policy includes no
specifications for the depth and breadth of scanning. For example, no requirement exists for the
use of credentialed scans, which utilize administrator-level, privileged access to allow a scanning
tool to perform a more exhaustive and accurate examination of a system. The policy also leaves
uncertain what vulnerability checks a scanner must employ. As we found, this has resulted in
inconsistent practices across the Department.


5
    See appendix A, Objectives, Scope, and Methodology, for details of our vulnerability scan assessment.
6
    The vulnerabilities identified may include false-positives, which potentially include conditions not accurately
     reported by the scanners. However, our scanning practices, which include the use of administrator-level
     credentials, tend to minimize the number of false positives.


                                                             4
U.S. Department of Commerce                                              Final Report No. OIG-11-012-A
Office of Inspector General                                                          November 15, 2010


Some operating units either were not performing credentialed scans or had only recently begun
credentialed scanning. One operating unit’s quarterly scanning focused on a very limited set of
the top 20 vulnerabilities identified by a private security organization. As tables 1 and 2
illustrate, more thorough scanning, to include credentials and sufficient vulnerability checks, is
necessary to ensure that software flaws are sufficiently identified.
We compared our non-USPTO assessment results with operating units’ most recent quarterly
scans and included both in table 1. On average, we identified over 3 times as many high-risk
vulnerabilities per computer than were identified by the operating units’ quarterly scans. The
scans for our assessment identified 4.2 vulnerabilities per computer, compared with 1.3 per
computer identified by the operating units’ quarterly scans of the same systems, after adjusting
for one NOAA system that was a statistical outlier. This NOAA system accounted for 9,299
instances (74 percent) of the vulnerabilities, although NOAA has since made progress by
installing patches that have significantly reduced this number.

           Table 1. Comparison of Vulnerability Scans Conducted on
                       Selected Non-USPTO Systems
                                    Systems         Computers         High-Risk      Vulnerabilities
 Basis for Scan                     Scanned           Scanned     Vulnerabilities    per Computera
Operating Unit Quarterly                  10              1,427            1,842                 1.3
(including outlier system)              (11)            (1,509)          (1,916)               (1.3)
OIG FISMA Audit                           10                784            3,327                 4.2
(including outlier system)              (11)            (1,003)         (12,626)             (12.6)
a
    High-Risk Vulnerabilities / Computers Scanned
Source: OIG and operating unit scans


Findings from our vulnerability assessment for three USPTO systems are presented in table 2.
Particularly for the two systems in our subset operated by USPTO, our scans identified many
more vulnerabilities per computer than USPTO’s annual scan (30.5 versus 1.7). USPTO did not
perform quarterly scanning of these two systems, as mandated by policy. The third USPTO
system, operated by a contractor, was scanned quarterly. The contractor’s quarterly scans were
comprehensive, identifying the same number of high-risk vulnerabilities per computer (14.7) as
our audit scan.


           Table 2. Comparison of Vulnerability Scans Conducted on
                          Selected USPTO Systems
                                    Systems         Computers         High-Risk      Vulnerabilities
 Basis for Scan                     Scanned           Scanned     Vulnerabilities    per Computera
USPTO Quarterly                            2                322              537                 1.7
(including contractor system)            (3)            (1,503)         (17,856)             (11.9)
OIG FISMA Audit                            2                 17              518               30.5
(including contractor system)            (3)               (60)          (1,152)             (19.2)
a
    High-Risk Vulnerabilities / Computers Scanned
Source: OIG and USPTO scans




                                                      5
U.S. Department of Commerce                                                   Final Report No. OIG-11-012-A
Office of Inspector General                                                               November 15, 2010


      B. Information Technology Systems Are Not Securely Configured, Reducing Their Ability
         to Withstand Attack
Secure configuration checklists, which document tailored security settings for IT products, were
not adequately defined in 14 of the 18 systems. We reviewed documentation for operating
systems and major applications (such as database management systems, Web servers, and
domain name servers); only four systems had adequately defined secure configuration checklists.
In addition, we assessed actual operating system and database (where applicable) configuration
settings implemented in system components by comparing them against either the system’s
tailored checklist or, if no tailored checklist existed, an industry benchmark. Only one system
had securely configured settings implemented for its operating systems (it did not include
databases). (See table 3.)



       Table 3. Compliance With Configuration Settings Requirements
System                             Systems                      Systems with                Systems with
Categorization                    Assessed                 Defined Checklists            Secure Settingsa
High Impact                              6                                  1                           0
Moderate
Impact                                     12                                 3                             1
  Total                                    18                                 4                             1
a
 We did not assess the implemented settings in one NOAA system due to concerns about            its high-
availability operational requirements during hurricane season.
Source: OIG


Department systems are not in compliance with requirements for configuration settings—
requirements important enough that we must report to OMB separately on them each year.
Securely configured settings have the potential to compensate for other types of vulnerabilities
and can limit the impact of cyber attacks. We have consistently reported on configuration
settings deficiencies in our annual FISMA work. These recurring findings suggest the need for
increased management attention and improved policy at the Department level.
Current policy requires specific configurations for workstations running Windows® operating
systems, in accordance with a federal mandate.7 However, no specific configurations are
required for server operating systems or other software, despite the public availability of a
variety of specific configurations. Rather, operating units are required to define specific
configurations, starting with an industry benchmark of their choosing, and then tailor it to define
a specific checklist of settings. However, our reviews have consistently found that operating
units are deficient in meeting this requirement.




7
    The Federal Desktop Core Configuration (FDCC) is an OMB-mandated security configuration. The FDCC
     currently exists for Microsoft Windows Vista® and Windows XP® operating system software.


                                                       6
U.S. Department of Commerce                                                       Final Report No. OIG-11-012-A
Office of Inspector General                                                                   November 15, 2010


    II.       Departmental Process for Reporting and Tracking IT Security Weaknesses
              and Corrective Action Is Deficient
FISMA requires that the Department’s information security program include a process for
planning, implementing, evaluating, and documenting action necessary to remedy security
weaknesses, including vulnerabilities identified in control assessments.
The Department’s mechanism for reporting and tracking IT security weaknesses and corrective
action is the Plan of Action and Milestones (POA&M), as required by OMB. For the past 2 fiscal
years, the Department has required operating units to manage POA&Ms using its Cyber Security
Assessment and Management tool (CSAM).8 The Department is required to submit a quarterly
report to OMB with summary POA&M information. However, we found significant deficiencies
in the POA&M process that affect the integrity of the information and compromise the
Department’s ability to effectively track the status of corrective action.
          A. Plans of Action and Milestones Lack Information Needed for Tracking and Oversight
Senior management, including the Department’s CIO, is not informed of or providing oversight
to system-level vulnerabilities as required because known security weaknesses are not entered in
system POA&Ms. Likewise, the Department’s summary report to OMB is understating the
number of security weaknesses in Department systems. Eleven systems we reviewed included
evidence of deficient security controls that are not included in the systems’ POA&Ms. In some
cases, system security plans indicated that required security controls are “planned” (not
implemented), but the absence of the controls and plans to implement them are not reported in
the POA&M.
In addition, incomplete information hinders management’s ability to effectively monitor the
scope of security weaknesses and measure actual progress toward correcting them. Eleven of the
18 systems’ POA&Ms exhibited one or more of the following conditions:

          •   POA&M-listed weaknesses were “closed” (an assertion that the vulnerability had been
              remediated) without supporting evidence or even an indication of what corrective action
              had been taken.

          •   Descriptions of security weaknesses were so vague that it was unclear what actually
              needed to be corrected. For example, one weakness was described as “Improving the
              C&A Package 800-53:RA-05 Vulnerability Scanning.” No additional details or milestone
              activities were provided, leaving the measurement of what was to be done (improve
              documentation? policies? practices?) and how (types of components? time interval?)
              unspecified.

          •   Planning elements such as milestones for remediation activities were omitted or
              contradictory. For example, a weakness that was targeted for remediation in 2015 had
              just two milestones—both in 2011, leaving a 4-year gap between the last corrective
              activity and the planned completion date.


8
    CSAM is a Web-based application that provides a common interface and repository of information.


                                                         7
U.S. Department of Commerce                                           Final Report No. OIG-11-012-A
Office of Inspector General                                                       November 15, 2010




   B. Reporting and Tracking Process Lacks Controls over Data Integrity
Inconsistency in the POA&M process prevents management from having an accurate account of
security weaknesses and plans to correct them. New in fiscal year (FY) 2010, the departmental
CIO, along with the Director of Human Resources, instituted an individual performance metric
for key system staff that measures the extent to which POA&M items are closed (weaknesses
corrected) on schedule. Without policy requirements for scheduling corrective action, closing
POA&M-listed weaknesses, and a separation of roles in the POA&M process, a single individual
may have the ability to falsely improve his/her performance rating or that of the organization.
Fourteen of the 18 systems we reviewed exhibited evidence of one or more of the following:

   •   POA&M items were closed but security weaknesses were not corrected. An egregious
       example of this was a high-impact system for which all 191 items on its POA&M were
       closed in the first quarter of FY 2010 based on an assertion that the system’s security
       controls would be reassessed within 6 months. However, the reassessment has been
       postponed—it is currently planned for the third quarter of FY 2011—while the
       weaknesses persist, unreported and unmanaged.

   •   Old POA&M items were closed and reopened as new items, inaccurately reporting the
       timeliness of corrective action. As a planned date for completion of corrective action
       approached (or in some cases, after it became due), IT security personnel canceled or
       closed the POA&M item and added a new item to the POA&M for the same weakness,
       with a corresponding new planned completion date farther into the future.

   •   Planned completion dates were excessive for relatively simple actions required to
       remediate weaknesses. For example, a lack of passwords required for administrator
       accounts was reported on one system’s POA&M in May 2009; the scheduled completion
       date for correcting the deficiency was in June 2010. Over 1 year was deemed an
       appropriate time frame for resolving a critical yet basic security control.

   •   There was no “separation of duties”—necessary to ensure the integrity of the process.
       The person requesting closure of the POA&M item (the individual asserting that the
       weakness has been corrected) was the same person later authorizing the closing of the
       item (verifying evidence of the corrective action). While some operating units do utilize
       separate roles in the closure process, this is not consistent Department-wide, and current
       policy does not address this issue.
The Department’s current policy for POA&Ms addresses what types of security deficiencies
must be included, instructions for various fields in the POA&M form, and operating units’
quarterly reporting requirements that have since been superseded by the reporting capabilities of
CSAM. The policy does not address standards of evidence for closing deficiencies listed on
POA&Ms or a role structure to ensure separation of duties with respect to the process. Improved
policy and consistency in its application across the Department are needed to ensure that accurate
data are available to senior management and in reports to OMB.




                                                8
U.S. Department of Commerce                                                        Final Report No. OIG-11-012-A
Office of Inspector General                                                                    November 15, 2010


III.       Contingency Planning Weaknesses Threaten Operating Units’ Ability to
           Restore System Data and Operations After Disruption
Contingency planning controls are intended to ensure the capability to quickly and competently
recover from a variety of disruptions, minimizing the loss of availability and preserving the
integrity of data. Department policy, in accordance with minimum requirements for federal
systems, requires operating units to test contingency plans at least annually to determine their
effectiveness and the organization’s readiness to execute them.
The policy also requires moderate- and high-impact systems to have alternate processing sites
that allow critical functions to resume when primary processing capabilities are disrupted. An
alternate processing site must be geographically separated from the primary processing site in
order to prevent both from being susceptible to the same local environmental hazards and
disasters. High-impact systems’ alternate processing sites must be tested to ensure that
capabilities to support contingency operations are in place.
Contingency planning also contributes to continuity of operations in support of the Department’s
Primary Mission-Essential Functions—departmental functions that directly support National
Essential Functions (government functions necessary to lead and sustain the nation during a
catastrophic emergency). The Department has four such essential functions, in the following
areas: (1) export control, (2) environmental satellites, (3) weather forecasting, and (4) spectrum
management and the Internet. Of the systems we reviewed, one Bureau of Industry and Security
system supports the export control-related function and six NOAA systems support the satellite-
or weather forecasting-related functions.
For the past 2 years, our FISMA reviews have identified instances in which contingency plans
were tested insufficiently or not at all. While the Department has made progress,9 our review
indicated that these same weaknesses, which undermine the Department’s ability to restore
operations in a timely manner when serious disruption occurs, are continuing.
       A. Contingency Plans Are Not Adequately Tested
Of the 18 systems we reviewed, 6 were not tested in accordance with Department policy (see
table 4.). Three high-impact systems and one moderate-impact system were not tested annually
as required, including two NOAA systems that had not been tested since FY 2007; both of those
systems support the primary mission-essential weather forecasting function. National Weather
Service personnel currently responsible for the systems explained that they received ownership
of the systems from the weather service’s Office of the Chief Information Officer in the second
quarter of FY 2010, and that the contingency plans will be tested in FY 2011.
Two systems’ contingency plan tests were inadequate: one high-impact system’s test did not
comply with policy requirements in that it lacked an alternate processing site at which to conduct
testing. And a business continuity/disaster recovery test was conducted on one moderate-impact
system, but the test did not validate the recovery and restoration procedures described in the
contingency plan.

9
    In FY 2008, 44 percent of the contingency plans we reviewed were tested in accordance with Department policy;
     in FY 2009, 50 percent were adequately tested; in FY 2010, 67 percent were adequately tested.


                                                          9
U.S. Department of Commerce                                                        Final Report No. OIG-11-012-A
Office of Inspector General                                                                    November 15, 2010




                   Table 4. Summary of Contingency Plan Testing
               System                                   Contingency Plans
               Impact          Systems         Adequately          Not Inadequately
               Level          Reviewed            Tested        Tested      Tested
               High                  6                  2            3            1
               Moderate             12                10             1            1
                Total               18                 12            4            2
               Source: OIG



Testing informs and affects other required contingency planning activities and controls; the lack
of contingency plan testing could have a ripple effect on operating units’ ability to respond and
recover in the event of a system failure, emergency, or other disruption. Such other elements
include updating the plan based on lessons learned in the testing, conducting annual refresher
contingency training of personnel, testing backup information, and (for high-impact systems)
testing full recovery and reconstitution procedures. All of these actions are part of the minimum
requirements for preparing for emergency response, backup operations, and post-disaster
recovery.
In the case of three systems whose contingency plans were tested, the depth and rigor of testing
performed may no longer be considered sufficient under recently revised NIST guidance for
contingency planning.10 Three moderate-impact systems’ contingency plan tests were “tabletop,”
rather than “functional,” exercises.11 The revised guidance indicates that functional exercises
should be conducted for moderate- and high-impact systems, while tabletop exercises are
sufficient for low-impact systems only. Department policy requires operating units to follow this
guidance for contingency planning, but does not refer to the guidance in its contingency plan
testing and exercises requirements. The policy requires that the depth and rigor of testing
increase with the system’s impact level, but does not provide concrete examples.

     B. Systems Lack Alternate Processing Sites, Increasing the Risk of Not Being Available
     When Needed
Five systems that are required to have alternate processing sites do not, including three NOAA
systems (of which two have high-availability requirements) that support the weather forecasting
primary mission-essential function. NOAA has plans to arrange alternate processing sites by the
end of 2011 and 2015, respectively, for the two high-availability systems. The third NOAA
system’s documentation indicates that the lack of an alternate processing site is an accepted risk;
the system is scheduled to be decommissioned by the end of 2011. Planning documentation for

10
    National Institute of Standards and Technology. May 2010. Contingency Planning Guide for Federal Information
   Systems (NIST SP 800-34, Revision 1).
11
   According to NIST SP 800-34, tabletop exercises are discussion-based, in which personnel meet in a classroom
   setting to discuss their roles during an emergency and their responses to a particular situation. Functional
   exercises allow personnel to validate their operational readiness for emergencies by performing their duties in a
   simulated operational environment.


                                                        10
U.S. Department of Commerce                                                     Final Report No. OIG-11-012-A
Office of Inspector General                                                                 November 15, 2010


the NOAA systems indicates that the lack of alternate processing sites is due to “budget
constraint and technical complexity” or other funding issues. However, the systems’ plans of
action and milestones do not include cost estimates for resolving these deficiencies. Two
moderate-impact USPTO systems are subject to the operating unit’s plan to arrange alternate
processing sites for all its systems in a phased approach that will be completed in 2015.
Particularly for systems supporting primary mission-essential functions, the lack of alternate
processing sites may pose undue risk of prolonged disruption to systems that are critical to
ensuring continuity of essential governmental operations. High-availability systems that support
weather forecasting and lack alternate processing sites imperil NOAA’s ability to continually
meet its goals of saving lives, protecting property, and creating economic opportunity. Based on
our interviews with NOAA personnel and reviews of the systems’ contingency planning
documentation, events leading to a loss of the availability of the systems’ primary processing
sites would have dire consequences for the weather forecasting-related function.


IV.        Persistent Deficiencies in Security Plans and Control Assessments Reduce
           Overall Level of Information Assurance
Consistent with many of our previous FISMA reviews, system security plans lacked information
necessary to adequately describe system-specific control requirements and implementations—
information that senior officials need to assess risk. Security control assessments—which
provide assurance that controls are adequately implemented, operating as intended, and
providing the resulting security that systems require—depend upon clearly-defined requirements
and adequately described implementations in order to accurately judge the effectiveness of
security controls in the appropriate technologies. Thirteen of 18 systems’ security plans lacked
system-specific requirements or implementation details for security controls.
In addition, control assessments for 14 of 18 systems did not provide needed assurance; for
example, some assessments of controls implemented in system components consisted of reviews
of policy and procedures or interviews of staff, rather than technical examinations to validate
components’ configurations or tests to determine whether controls were operating correctly. In
other cases, controls were assessed for only one type of component rather than what are often
several (sometimes many) component types in which controls are implemented.
While we have previously reported these issues to operating units, often for individual systems
and in great detail, and made the Department’s Office of the Chief Information Officer aware,
these deficiencies continue to exist to an extent that causes concern. The Department’s efforts, in
response to our IT security workforce audit,12 to increase the knowledge and skills of personnel
with IT security responsibilities should eventually result in improvements in these areas.
However, it is not clear that senior officials are sufficiently aware of what have been
longstanding problems that require more urgent attention.




12
     Commerce OIG, Commerce Should Take Steps to Strengthen Its IT Security Workforce.


                                                       11
U.S. Department of Commerce                                           Final Report No. OIG-11-012-A
Office of Inspector General                                                       November 15, 2010


                                   Recommendations
To improve the effectiveness of the Commerce information technology security program and
practices, we recommend that senior officials with interim responsibility for the Deputy
Secretary position ensure that the Chief Information Officer and senior management of the
operating units work together to:
   1. Revise the departmental information technology security policy by providing specific
      implementation requirements that will ensure better and more consistent practices across
      the Department. Specifically,
           a. improve vulnerability scanning and patch management policies to ensure
              comprehensive identification of vulnerabilities and timely remediation of software
              flaws;
           b. add specific configuration- settings requirements for operating systems, major
              applications, and other products; and
           c. clarify requirements for the depth and rigor of contingency plan testing.
   2. Ensure that operating units take corrective action as necessary in response to our
      vulnerability scan assessments;
   3. Increase Department and operating unit management oversight of vulnerability scanning
      and patch management so that software flaws are comprehensively identified and
      remediated in a timely manner;
   4. Increase Department and operating unit management oversight of configuration settings
      to ensure that secure settings are defined, documented, and implemented for operating
      systems, major applications, and other products, as required;
   5. Revise and implement POA&M policy to include integrity controls (including separation
      of duties), evidence requirements, and management oversight;
   6. Ensure that operating units conduct contingency plan tests as required;
   7. Identify all systems without required alternate processing sites and determine the most
      efficient approach, resources required, and a schedule for arranging sites; and
   8. Ensure that system security plans adequately describe security controls and that control
      assessments provide needed assurance.




                                               12
U.S. Department of Commerce                                          Final Report No. OIG-11-012-A
Office of Inspector General                                                      November 15, 2010


                        Summary of Department Response
In responding to our draft report, the Department’s Chief Information Officer concurred with our
findings and recommendations. See appendix B for the complete response.




                                               13
U.S. Department of Commerce                                           Final Report No. OIG-11-012-A
Office of Inspector General                                                       November 15, 2010


             Appendix A: Objectives, Scope, and Methodology
In accordance with FISMA, our objective was to assess the effectiveness of the Department's
information security program and practices. This report describes key issues that most require
senior management’s attention. In general, we do not detail our findings for the individual
systems reviewed unless such is necessary for clarity. We focused on aggregate results to assess
the overall effectiveness of the Department’s IT security program. We will submit a separate
report to OMB, answering a full scope of security-related questions, in further accordance with
FISMA requirements.

Our assessment focused on a targeted selection of 18 systems from the following departmental
operating units/sub-units:

   •   Bureau of Industry and Security (BIS)

   •   U.S. Census Bureau

   •   Economic Development Administration (EDA)

   •   National Oceanic and Atmospheric Administration (NOAA)
       -   NOAA’s National Environmental Satellite, Data, and Information Service (NESDIS)
       -   NOAA’s National Weather Service (NWS)
       -   NOAA’s National Ocean Service (NOS)
       -   NOAA’s Office of the Chief Information Officer (OCIO)

   •   Office of the Secretary (OS)

   •   U.S. Patent and Trademark Office (USPTO)

We selected high- and moderate-impact systems, some of which support primary mission-
essential functions, because security breaches of these systems would have the greatest negative
impact on the confidentiality, integrity, or availability of data and Department operations. (See
table 5.)

To complete our assessment, we reviewed systems’ security-related documentation, including
system security plans, configuration settings checklists, Plans of Action and Milestones, security
control assessments, and quarterly vulnerability scans. We performed our own vulnerability
scans of 12 systems and assessed configuration settings in all 18. We utilized two NOAA system
vulnerability scans that were adequately performed, during our fieldwork, by a NOAA unit
newly responsible for the systems. We did not conduct vulnerability scanning of three Census
systems due to concerns that our work might disrupt 2010 decennial census operations. Our
vulnerability assessment of BIS’s Investigative Management System Redesign was limited to
configuration settings-related activities because vulnerability scanning was not appropriate for
the technical composition of the system.



                                                14
U.S. Department of Commerce                                          Final Report No. OIG-11-012-A
Office of Inspector General                                                      November 15, 2010


We performed our audit work from June to October 2010 at Commerce headquarters in
Washington, D.C., and various Census, NOAA, and USPTO facilities in Maryland and Virginia.
We conducted our audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions.



                              Table 5. Systems Reviewed
                                                                       Supports
                                                                       Primary
                                                                       Mission-
       Operating                             Impact                    Essential
       Unit/Sub-unit                          Level                    Function
       BIS                                    High                        X
       Census                               Moderate
       Census                               Moderate
       Census                               Moderate
       EDA                                  Moderate
       NOAA                                   High                         X
       NOAA                                 Moderate
       NOS                                  Moderate
       NESDIS                                 High                         X
       NESDIS                                 High                         X
       NESDIS                               Moderate
       NWS                                    High                         X
       NWS                                    High                         X
       NWS                                  Moderate                       X
       OS                                   Moderate
       USPTO                                Moderate
       USPTO                                Moderate
       USPTO                                Moderate
       Source: Department of Commerce




                                               15
U.S. Department of Commerce                                         Final Report No. OIG-11-012-A
Office of Inspector General                                                     November 15, 2010


We reviewed the Department’s compliance with applicable provisions of law, regulation, and
mandatory guidance, including

   •   Federal Information Security Management Act of 2002

   •   IT Security Program Policy and Minimum Implementation Standards, U.S. Department
       of Commerce, introduced by the CIO on March 9, 2009

   •   NIST Federal Information Processing Standards Publications
       -   199, Standards for Security Categorization of Federal Information and Information
           Systems
       -   200, Minimum Security Requirements for Federal Information and Information
           Systems

   •   NIST Special Publications
       -   800-18, Guide for Developing Security Plans for Information Technology Systems
       -   800-34, Contingency Planning Guide for Federal Information Systems
       -   800-37, Guide for the Security Certification and Accreditation of Federal Information
           Systems
       -   800-53, Recommended Security Controls for Federal Information Systems
       -   800-53A, Guide for Assessing the Security Controls in Federal Information Systems
       -   800-70, Security Configuration Checklists Program for IT Products
       -   800-115, Technical Guide to Information Security Testing and Assessment




                                              16
U.S. Department of Commerce                       Final Report No. OIG-11-012-A
Office of Inspector General                                   November 15, 2010


               Appendix B: Full Text of Department Response




(OAE-19904)


                                    17
